WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

JUN 1 6 2021
OFFICE OF THE CLERK

No. 20-1633
Anthony Anderson, et al.
(Respondents)

v.

Frank Salazar
(Petitioner)

is
I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one
requested by the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

fp

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Golden Automotive Group, LLC (trade name Planet Honda)
Leo Payne
Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
lei

I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature
Date: 6

/21

(Type or print) Name Timothy J. Lamb
El Ms.
ICI Mr.

ID Mrs.

El Miss

Firm Timothy J. Lamb P.C.
Address P.O. Box 654
City & State Littleton, CO
Phone

719-930-3562

Zip •80160
Email lambtimothy.Ipc@qweStoffice.net '

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc:

RECEIVED
JUN 2 2 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

CERTIFICATE OF SERVICE
I certify that on the 15th day of June, 2021, the foregoing Waiver was mailed to the United
States Supreme Court and a true and accurate copy of the foregoing Waiver was served on all
parties through the U.S. Mail, postage prepaid, addressed to the following:
Frank Salazar
870 North Main Street
Spearfish, SD 57783
Phillip M. Khalife, Esq.
Caroline Brittany Veltri, Esq.
Frascona Joiner Goodman & Greenstein PC
4750 Table Mesa Drive
Boulder, CO 80305
Attorneys for Black Hills Federal Credit Union, DeeAnn Dietrich, and Kitty Gust
Philip J. Weiser, Esq.
Patrick Sayas, Esq.
Heather Whitman, Esq.
Jessica E. Russ, Esq.
Office of the Attorney General
Colorado Department of Law
Ralph L. Can Judicial Building
1300 Broadway, 10th Floor
Denver, CO 80203
Attorneys for Anthony J. Anderson and Kevin Kihn

TIMOTHY J. LAMB, P.C.
Attorneys and Counselors at Law
P.O. Box 654, Littleton, CO 80160
(303) 947-8596 • lambtimothyjpc@qwestoffice.net

June 15, 2021

U.S. Supreme Court
ATTN: Clerk's Office
1 First Street NE
Washington, DC 20543
Re:

Frank Salazar v. Anthony Anderson, et al.
Case No. 20-1633

Dear Sir or Madam:
Enclosed for filing in the above-referenced matter is the original Waiver.
An extra copy of the Waiver is also enclosed. Would you kindly return a file-stamped
copy of the Waiver to me in the enclosed self-addressed, stamped envelope. Thank you very
much for your assistance in this matter.
Sincerely,

TJL/cko
Enclosures

RECEIVED
JUN 2 2 2021
OFFICE OF 1HE CLERK
SUPREME COURT U.S.

